No. 20-1088

In the Supreme Court of the United States
DAVID AND AMY CARSON, ET AL.,

Petitioners,
v.
A. PENDER MAKIN,
,

Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the Brief Amicus Curiae
of the Liberty Justice Center, American Federation for Children, and Atlantic Legal
Foundation contains 4,757 words, excluding the parts of the document that are
exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on September 9, 2021
/s/ Daniel R. Suhr
Daniel R. Suhr
Counsel of Record
LIBERTY JUSTICE CENTER
141 W. Jackson St.
Suite 1065
Chicago, Illinois 60604
(312) 637-2280
dsuhr@libertyjusticecenter.org

